                       U.S. Department of Agriculture

                          Office of Inspector General
                                     Northeast Region




              Audit Report

    Followup Review of Food and Safety
Inspection Service’s Controls Over Imported
         Meat and Poultry Products




                             Report No. 24601-08-Hy
                                        August 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




August 4, 2008

REPLY TO
ATTN OF:       24601-08-Hy

TO:            Alfred V. Almanza
               Administrator
               Food Safety and Inspection Service

ATTN:          William C. Smith
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Followup Review of Food Safety and Inspection Service’s Controls Over
               Imported Meat and Poultry Products


This report presents the results of the subject audit. Your response to the official draft,
dated July 16, 2008, is included as exhibit B. Excerpts of your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations
section of the report. Based on your response, we accepted management decision on 18 of
the report’s 19 recommendations. Please follow your agency’s internal procedures in
forwarding documentation for final action to the Office of the Chief Financial Officer.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the interim procedures and timeframes for implementing
Recommendation 15. Please note that the regulation requires management decision to be
reached on all findings and recommendations within 6 months from report issuance and
final action to be taken within 1 year of the date of management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Executive Summary
Followup Review of the Food Safety and Inspection Service’s Controls Over Imported
Meat and Poultry Products (Audit Report No. 24601-08-Hy)

Results in Brief                     In April 2007, the Chairman of the Committee on Agriculture, Nutrition, and
                                     Forestry of the United States Senate requested that we evaluate the adequacy
                                     of the Food Safety and Inspection Service’s (FSIS) inspection processes for
                                     meat and poultry imports to ensure the integrity of the U.S. food supply.
                                     These processes included: (1) determinations that foreign countries’ food
                                     safety systems are equivalent to U.S. standards, (2) periodic (generally
                                     annual) onsite, in-country audits 1 to verify that the systems remain
                                     equivalent, and (3) reinspection of products at the U.S. ports of entry. We
                                     also agreed to determine whether FSIS took appropriate and timely actions to
                                     implement prior Office of Inspector General (OIG) audit recommendations
                                     regarding the imported meat and poultry inspection program. 2

                                     FSIS administers its imported meat and poultry inspection program through
                                     the Office of International Affairs (OIA). OIA is responsible for formulating
                                     policies, determining a foreign country’s eligibility to export meat and
                                     poultry products into the United States, and reinspecting imported meat and
                                     poultry products. OIA is also responsible for conducting system audits (also
                                     referred to as onsite audits) of a foreign government’s food regulatory
                                     program, which include a review of (1) establishments certified to export to
                                     the United States, (2) laboratories conducting analytical testing of products
                                     being exported to the United States, and (3) government controls and
                                     oversight to ensure that products are produced under requirements equivalent
                                     to U.S. inspection requirements. These review and reinspection activities
                                     form the basis of FSIS’ determinations of whether a country’s inspection
                                     system is equivalent to U.S. standards.

                                     In our prior reports, OIG made 51 recommendations to strengthen FSIS’
                                     regulatory oversight of imported meat and poultry products. For these 51
                                     recommendations, FSIS provided the Office of the Chief Financial Officer
                                     (OCFO) with evidence that the agreed upon corrective actions had been
                                     implemented. We found that FSIS adequately implemented the corrective
                                     actions reported to OCFO for 49 of the 51 recommendations. For the
                                     remaining two recommendations, FSIS had not documented the protocols
                                     provided to OCFO in OIA’s management controls. We also noted additional
                                     areas of FSIS’ equivalence and reinspection processes that could be
                                     enhanced.

1
    FSIS’ audits of foreign countries’ food safety systems are designed to ensure compliance with the regulatory requirements of the Federal Meat
    Inspection Act and the Poultry Products Inspection Act. These audits are not conducted in accordance with Government Auditing Standards.
2
    Since June 2000, OIG has issued four reports: (1) FSIS Imported Meat and Poultry Inspection Process Phase I, Audit Report No. 24099-03-Hy,
    June 2000; (2) FSIS Imported Meat and Poultry Reinspection Process Phase II, Audit Report No. 24099-04-Hy, February 2003; (3) FSIS Imported
    Meat and Poultry Equivalence Determinations Phase III, Audit Report No. 24099-05-Hy, December 2003; and (4) FSIS Assessment of the Equivalence
    of the Canadian Inspection System, Audit Report No. 24601-05-Hy, December 2005.

USDA/OIG-Audit No. 24601-08-Hy                                                                                                          Page i
                    •   Equivalence of Foreign Food Inspection Safety Systems

                        We found that FSIS needs to strengthen the agency’s controls for
                        assessing the equivalence of foreign countries’ food safety systems,
                        specifically, the controls concerning the methodology used to select
                        foreign establishments for review. In addition, FSIS should document the
                        management controls implemented in response to two of our prior
                        recommendations and the agency’s policy to perform onsite audits prior
                        to receiving product from a new country (i.e., initial equivalence) or a
                        suspended country (i.e., did not maintain an inspection system equivalent
                        to the United States).

                        Sample of Foreign Establishments Selected for Review. As one part of its
                        onsite audits in a foreign country, FSIS selects a sample of establishments
                        (if there are more than 10 establishments certified by the foreign
                        government to export to the United States) to validate that the country’s
                        inspection system is equivalent to the United States. If a foreign
                        government has certified 10 or less establishments, then FSIS is to review
                        all certified establishments. As designed, FSIS’ sample selection
                        methodology is composed of two parts. The first part, a random sample of
                        establishments, is derived from a statistical sample table based on the
                        number of certified establishments in an exporting country. The second
                        part, a targeted-judgmental sample, includes establishments with known
                        problems based on findings from prior onsite audits, consumer
                        complaints, or reinspection results at U.S. ports of entry recorded in
                        FSIS’ information system. FSIS’ review of foreign establishments is
                        one-third of the agency’s process to determine whether a country is
                        maintaining an equivalent inspection system. The remaining two-thirds
                        are a review of laboratories and government controls.

                           FSIS’ random sample selection methodology is designed to provide
                            the agency with the statistical assurance, at the 95 percent confidence
                            level, that FSIS will find at least one deficient establishment if
                            20 percent of the universe of eligible establishments are deficient (i.e.,
                            a 20 percent error rate). FSIS officials could not provide information
                            or documentation on how the agency decided that a 20 percent error
                            rate was reasonable and acceptable. For three of the four countries we
                            reviewed, FSIS officials did not select the minimum number of
                            establishments to review as part of the random sample in the onsite
                            reviews performed in 2006 and 2007. FSIS officials could not explain
                            why FSIS reviewers did not visit the minimum number of
                            establishments in 2006. For 2007, FSIS officials explained that they




USDA/OIG-Audit No. 24601-08-Hy                                                                Page ii
                                                 used a draft, risk-based approach to select establishments. 3 Since the
                                                 minimum number of establishments was not reviewed, we questioned
                                                 whether FSIS had sufficient data to conclude that these countries’
                                                 food safety systems were equivalent to the U.S. system.

                                                FSIS could not demonstrate that it performed an adequate sample of
                                                 foreign establishments. FSIS officials explained that they do not
                                                 document the basis (i.e., random versus judgmental) for including
                                                 specific establishments in the sample. In addition, FSIS does not have
                                                 criteria for evaluating reinspection results at U.S. ports of entry to
                                                 determine which establishments should be judgmentally selected for
                                                 review.

                                           As implemented, FSIS’ sample selection methodology provides the
                                           agency with reduced assurance that FSIS has a sufficient basis for
                                           assessing the equivalence of a country’s food safety system.

                                           Prior OIG Recommendations. We previously reported that FSIS did not
                                           timely address serious concerns with a country’s inspection system
                                           because FSIS did not have protocols for evaluating deficiencies that could
                                           jeopardize a country’s overall equivalence determination. We also found
                                           that FSIS did not conduct an enforcement audit 4 of this country’s food
                                           safety system to ensure noted deficiencies were corrected. As part of our
                                           current review, we found that FSIS implemented protocols to address
                                           these two weaknesses based on actions FSIS took in response to
                                           equivalency concerns raised regarding the Danish inspection system in
                                           2007. However, agency officials confirmed that FSIS did not document
                                           the protocols in the agency’s management controls. The protocols were
                                           explained in documentation FSIS provided to OCFO to demonstrate
                                           FSIS’ planned corrective action. However, FSIS did not make a priority
                                           of documenting these protocols as part of its management controls.
                                           Accordingly, FSIS has reduced assurance that correct decisions will be
                                           consistently made when enforcement audits are delayed or a country’s
                                           equivalence is in question. FSIS officials agreed that these protocols
                                           should be documented, and in January 2008, the agency hired an intern to
                                           assist with this process.

                                           Onsite Audit Procedures Need Documenting. FSIS officials explained
                                           that the agency’s policy is to perform an onsite audit to ensure a country’s
                                           inspection system is equivalent to U.S. standards prior to (1) a new

3
    Agency officials explained that this approach was not finalized; therefore, we did not perform a detailed examination of the risk-based approach.
    According to the January 30, 2007, draft “Guidelines for a Risk-Based Program for Verifying the Equivalence of Foreign Inspection Systems,” FSIS
    planned to use a variety of inputs in selecting foreign establishments for review. These inputs included such things as types and volume of product
    exported to the United States, past performance of an establishment’s food safety controls of public health significance, and delistments of or
    recommendations to delist foreign establishments.
4
    FSIS currently refers to these audits as “followup” or “special emphasis” audits. Enforcement audits can lead to a determination that a country’s
    inspection system is not equivalent to U.S. standards and, thus, not eligible to export to the United States.

USDA/OIG-Audit No. 24601-08-Hy                                                                                                             Page iii
                                            country’s first shipment and (2) a suspended country resuming trade with
                                            the United States. Agency officials confirmed that this policy is not
                                            documented as part of FSIS’ management controls but could not explain
                                            why. Documented procedures in these areas are critical because an
                                            extended period of time can transpire (e.g., over 2 years) between FSIS’
                                            onsite audit to determine that a country’s inspection system is equivalent
                                            to U.S. standards and the date of the country’s first shipment. In addition,
                                            countries may be suspended for extended periods of time. For example,
                                            FSIS suspended Austria’s ability to export product from 2003 to 2007 for
                                            not maintaining an equivalent inspection system. To mitigate the risk that
                                            ineligible product is potentially exported to the United States or a
                                            country’s food safety system is not equivalent, FSIS should document
                                            procedures to conduct onsite audits prior to the first shipments of new
                                            countries or countries that had been suspended.

                                       •    Reinspection of Imported Meat and Poultry Products

                                            FSIS needs to strengthen agency controls for reinspecting 5 meat and
                                            poultry products at U.S. ports of entry. Specifically, FSIS should
                                            determine the number of intensified inspections for physical and
                                            laboratory failures that provide the appropriate level of protection to
                                            ensure the safety and wholesomeness of imported products. In addition,
                                            FSIS needs to strengthen procedures for: (1) specifying the order of
                                            performing reinspection activities, (2) verifying a lot’s production date,
                                            (3) analyzing data in FSIS’ import information system, and (4) managing
                                            noncompliance records.

                                            When products are presented to FSIS, the FSIS information system
                                            assigns one of four levels of reinspection to the product presented:
                                            skipped, normal, intensified, or increased. Skipped inspection signifies
                                            the lot 6 will be subjected to the evaluations for transportation damage,
                                            labeling, proper certification, general condition, and accurate count.
                                            Under normal inspection, the lot has been randomly selected for physical
                                            reinspection, which can include laboratory analyses. Physical reinspection
                                            activities determine such things as whether the product is contaminated
                                            (e.g., fecal, metal) or otherwise not in good condition (e.g., spoiled).
                                            Laboratory analyses test for microbial violations (e.g., Escherichia coli
                                            O157:H7) or residues (e.g., drugs and chemicals) above tolerable limits.
                                            Intensified inspection signifies a previous failure to meet U.S.



5
    The reinspection of imported meat and poultry products at U.S. ports of entry by FSIS inspection personnel helps assess the effectiveness of a foreign
    government’s food safety system. To that end, FSIS is given the responsibility to randomly select samples of imported meat and poultry products and
    perform the following types of reinspection activities, as appropriate: product examinations, net weight compliance, condition of container, incubation
    of shelf-stable products, special examinations, and laboratory analyses. The random selection of product is based on compliance histories of the
    establishment, countries, and product being presented for reinspection.
6
    A lot is a group of similarly processed and packaged products (e.g., boxed, frozen boneless beef) from one establishment in a country.

USDA/OIG-Audit No. 24601-08-Hy                                                                                                                 Page iv
                                             requirements. Under intensified level of inspection, 7 lots are held by FSIS
                                             pending results for the type of inspection in question. If the level of
                                             inspection is increased, FSIS management officials have decided to
                                             perform reinspection activities above the normal level of inspection for
                                             the lot based on problems associated with the specific product, foreign
                                             establishment, or country.

                                             Basis Needed for Intensified Inspection. When product from an eligible
                                             foreign establishment fails reinspection (i.e., physical and laboratory
                                             failures) at U.S. ports of entry, FSIS intensifies the reinspection of
                                             subsequent shipments of the same type of product from that
                                             establishment. For example, FSIS reinspects 10 subsequent shipments
                                             when inspectors find that product is contaminated with fecal material.
                                             FSIS has used this practice for 25 years. The foundation of this practice
                                             was traced to the June 1983 report by FSIS’ Import Inspection Task
                                             Force. FSIS could not demonstrate that the number of intensified
                                             inspection for physical and laboratory failures provided the appropriate
                                             level of protection to ensure the safety and wholesomeness of imported
                                             products. According to FSIS officials, when the agency reprogrammed
                                             the information system in 2002, statisticians evaluated the number of
                                             intensified inspections for physical and laboratory failures.

                                             Specify Order for Performing Reinspection Activities. When shipments
                                             contained multiple lots of the same type of product that included both
                                             normal and skipped levels of reinspection, FSIS inspection personnel
                                             performed the skip assignments before the physical reinspection. This
                                             occurred because FSIS procedures did not require the physical
                                             reinspection to be performed first. According to FSIS officials, skips are
                                             done first because these assignments can be completed quickly. As a
                                             result, FSIS has reduced assurance that the appropriate actions were taken
                                             prior to imported products being allowed to enter U.S. commerce. We
                                             identified 35 shipments that contained 43 lots of the same type of product
                                             that had a physical failure for such things as fecal contamination,
                                             processing defects (e.g., blood clots), excess hair, and labeling defects. Of
                                             these 35 shipments, 12 had skipped lots that contained approximately
                                             325,000 pounds of lamb, mutton, 8 beef, and goat from Australia and
                                             Brazil that was released into U.S. commerce without the same type of
                                             reinspection as those lots that failed physical reinspection.

                                             Document Procedures to Verify a Lot’s Production Date. According to
                                             FSIS officials, when product is received from a previously delisted
                                             establishment, import inspection personnel have been verbally instructed

7
    Intensified inspections are triggered after a product fails to pass reinspections for physical and laboratory testing. According to the programming of the
    information system a certain number of shipments (e.g., 10 consecutive shipments for physical failures) of the same types of product must pass
    reinspection before the level of reinspection returns to normal.
8
    Mutton is a mature sheep.

USDA/OIG-Audit No. 24601-08-Hy                                                                                                                    Page v
                                            that the production date must be verified before they enter this date into
                                            the information system. FSIS inspection personnel have been told that if
                                            the date of the foreign health certificate or production data information on
                                            the shipping carton is not within an eligible time period for the foreign
                                            establishment, they are to consult with their supervisor or FSIS
                                            headquarters. However, FSIS has not documented this in procedures to
                                            guide inspectors’ decision on what data sources to use to verify a lot’s
                                            production date and did not provide a reason for not documenting this
                                            procedure.

                                            By analyzing data in FSIS’ information system, we identified
                                            38 shipments from a delisted foreign establishment that did not appear to
                                            follow the verbal instruction. 9 We found that a Brazilian establishment
                                            was recertified as eligible to export product on June 29, 2005. The
                                            establishment then exported 39 lots 10 of beef product totaling almost
                                            1.6 million pounds from September 19, 2005 to January 10, 2006.
                                            According to data in FSIS’ information system, all 39 lots were produced
                                            by the establishment on June 29, 2005, which was not consistent with the
                                            establishment’s export history. Data in FSIS information system indicated
                                            that an average day’s production from this establishment totaled
                                            approximately 100,000 pounds.

                                            FSIS regulation does not require production dates to be certified by the
                                            foreign countries; however, FSIS inspection personnel have the authority
                                            to hold shipments until the eligibility of the product is verified. This
                                            includes requesting the foreign government to provide productions dates
                                            for specific shipments. FSIS should determine whether foreign
                                            establishments should be required to provide the lot’s production date(s).

                                            Establish Procedures to Analyze Data. FSIS’ information system
                                            contained incomplete and erroneous data. For example, we identified that
                                            FSIS’ information system did not have a record of the reinspection results
                                            for 400 lots of product (approximately 7.4 million pounds of meat and
                                            poultry products) presented for reinspection from January 1, 2005 to
                                            August 31, 2007. This occurred because FSIS did not have documented
                                            procedures for analyzing data in the information system or other edit
                                            checks to determine that data were reasonable, complete, and accurate.
                                            FSIS officials explained that their analyses of data in the information
                                            system are often performed on an ad hoc basis. FSIS officials explained
                                            that the information system does not alert users (i.e., import inspectors,
                                            their supervisors, and Headquarters staff) that inspection results have not
                                            been recorded. We also found that inspection personnel could enter
                                            rejected weights that exceeded the weight of product presented for

9
     FSIS could not provide source documentation that we could use to validate the date in the information system. This source documentation was deleted
     according to FSIS record retention requirements.
10
     One of the shipments contained more than one lot.

USDA/OIG-Audit No. 24601-08-Hy                                                                                                              Page vi
                                            reinspection. As previously noted, we found that FSIS also does not have
                                            criteria for evaluating reinspection results at U.S. ports of entry. This
                                            type of analysis would assist in identifying foreign establishments to
                                            select for onsite review. As a result, FSIS’ has reduced assurance that its
                                            data provide reliable information for monitoring program operations.

                                            Strengthen Management of Noncompliance Records. FSIS inspection
                                            personnel did not always follow established procedures for resolving the
                                            deficiencies noted in noncompliance records. 11 For example, FSIS
                                            inspection personnel had not documented the resolution of deficiencies
                                            noted in January 2007 (e.g., build up of blood and debris on the bottom of
                                            a band saw) in a California import inspection establishment. 12 In addition,
                                            FSIS’ database 13 of noncompliance records may not be complete. We
                                            found a noncompliance record in the files at a Pennsylvania import
                                            inspection establishment that was not in FSIS’ database. As a result, there
                                            is reduced assurance that import inspection establishments are adequately
                                            correcting identified deficiencies.

                                            We identified a similar finding in our review of issues impacting the
                                            development of the risk-based inspection. 14 In response to one of our
                                            prior recommendations, FSIS agreed to reassess the effectiveness of its
                                            training programs. FSIS should include the training of import inspection
                                            personnel in the agency’s reassessment.

                                      FSIS needs to address the weaknesses in the agency’s imported meat and
                                      poultry inspection program identified in this report. By addressing these
                                      concerns, FSIS will put in place a more robust system of controls for
                                      evaluating the equivalency of foreign countries’ food safety systems and
                                      reinspecting product at U.S. ports of entry.

Recommendations
In Brief                              To enhance controls for assessing the equivalence of foreign food safety
                                      systems FSIS should strengthen the agency’s methodology for selecting
                                      foreign establishments for review. The agency should document in its
                                      management controls the protocols implemented in response to our prior
                                      recommendations for evaluating deficiencies that question the equivalence of
                                      a foreign food safety system and performing enforcement audits. FSIS should
                                      also document the policy for performing onsite audits for new countries and
                                      countries that resumed trade with the United States.


11
     FSIS inspection personnel issue a noncompliance record to an establishment that is not complying with regulatory requirements. FSIS inspection
     personnel provide the noncompliance records to the management of the establishment for response and are required to document their verification of
     the establishment’s corrective action (i.e., resolution).
12
     At the exit conference to discuss the draft report in June 2008, FSIS provided documentation these deficiencies were adequately resolved.
13
     Noncompliance records are recorded in FSIS’ Performance Based Inspection System, the system currently used to record inspection results.
14
     Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments, Audit Report No. 24601-07-Hy, issued
     December 2007

USDA/OIG-Audit No. 24601-08-Hy                                                                                                            Page vii
                    To strengthen controls over the reinspection of meat and poultry products at
                    U.S. ports of entry, FSIS should determine the number of intensified
                    inspections for physical and laboratory failures that provide the appropriate
                    level of protection to ensure the safety and wholesomeness of imported
                    product. FSIS should also require physical reinspection, which includes
                    laboratory analyses, of imported product be conducted prior to skip
                    assignments to ensure skip assignments receive the same type of inspection if
                    a lot fails reinspection. The agency should also assess whether foreign
                    establishments should be required to provide the lot’s production date(s).
                    FSIS needs to implement standard procedures for analyzing agency data to
                    ensure the data is reasonable, accurate and complete. Data from the
                    information system should provide a basis for selecting foreign
                    establishments for onsite reviews.

Agency Response     FSIS agreed with the report’s 19 recommendations. We have incorporated
                    FSIS’ response in the Findings and Recommendations section of this report,
                    along with the OIG position. FSIS’ response is included as Exhibit B.

OIG Position        Based on FSIS’ response, we were able to reach management decision on
                    18 of the report’s 19 recommendations. Management decision on
                    Recommendation 15 can be reached once FSIS provides us with the
                    additional information outlined in the report section, “OIG Position.”




USDA/OIG-Audit No. 24601-08-Hy                                                         Page viii
Abbreviations Used in This Report


C.F.R.                  Code of Federal Regulations

FSIS                    Food Safety and Inspection Service

HACCP                   Hazard Analysis and Critical Control Point

OCFO                    Office of the Chief Financial Officer

OIA                     Office of International Affairs

OIG                     Office of Inspector General

PHIS                    Public Health Information System

Secretary               Secretary of Agriculture

SSOP                    Sanitation Standard Operating Procedures

USDA                    U.S. Department of Agriculture




USDA/OIG-Audit No. 24601-08-Hy                                       Page ix
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................ix

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Equivalence of Foreign Food Safety Systems................................................................ 5

        Finding 1             Methodology for Selecting Foreign Establishments to Review Needs
                              Strengthening .......................................................................................................... 5
                                  Recommendation 1 .......................................................................................... 8
                                  Recommendation 2 .......................................................................................... 8
                                  Recommendation 3 .......................................................................................... 9
                                  Recommendation 4 .......................................................................................... 9
        Finding 2             Prior Recommendations Not Fully Implemented.................................................. 10
                                  Recommendation 5 ........................................................................................ 12
        Finding 3             Policy for Performing Onsite Audits for New and Suspended Countries Not
                              Documented .......................................................................................................... 13
                                  Recommendation 6 ........................................................................................ 16
                                  Recommendation 7 ........................................................................................ 16

    Section 2. Reinspection of Meat and Poultry Products Imported into the United States ......... 17

        Finding 4             Basis for the Number of Intensified Inspections Needed...................................... 17
                                  Recommendation 8 ........................................................................................ 19
                                  Recommendation 9 ........................................................................................ 19
        Finding 5             Physical Reinspections Not Required to be Performed Before Skipped
                              Assignments .......................................................................................................... 20
                                  Recommendation 10 ...................................................................................... 21
                                  Recommendation 11 ...................................................................................... 21
        Finding 6             Procedures to Assist Inspectors’ Validation of a Lot’s Production Date Not
                              Documented .......................................................................................................... 22
                                  Recommendation 12 ...................................................................................... 23
                                  Recommendation 13 ...................................................................................... 23
                                  Recommendation 14 ...................................................................................... 23
        Finding 7             FSIS Needs Procedures for Analyzing Data ......................................................... 24
                                  Recommendation 15 ...................................................................................... 26
                                  Recommendation 16 ...................................................................................... 27
                                  Recommendation 17 ...................................................................................... 27
                                  Recommendation 18 ...................................................................................... 27
USDA/OIG-Audit No. 24601-08-Hy                                                                                                               Page x
        Finding 8            Procedures for Managing Noncompliance Records Not Followed....................... 28
                                 Recommendation 19 ...................................................................................... 29

Scope and Methodology........................................................................................................................ 30

Exhibit A – Equivalence Protocols ...................................................................................................... 32
Exhibit B – Agency Response............................................................................................................... 35




USDA/OIG-Audit No. 24601-08-Hy                                                                                                      Page xi
Background and Objectives
Background                             U.S. food safety legislation 15 requires foreign countries that export meat and
                                       poultry products to the United States to establish and maintain systems that
                                       are equivalent to the U.S. inspection system. Meat and poultry products must
                                       originate in countries and establishments approved to export to the United
                                       States. The U.S. Department of Agriculture’s (USDA) Food Safety and
                                       Inspection Service (FSIS) is responsible for monitoring foreign countries and
                                       exporters to ensure the countries’ food safety systems are equivalent to U.S.
                                       standards.

                                       FSIS administers its imported meat and poultry inspection program primarily
                                       through the Office of International Affairs (OIA). OIA is responsible for
                                       formulating policies, determining a foreign country’s eligibility to export
                                       meat and poultry products to the United States, reviewing food safety
                                       requirements imposed by foreign governments, and reinspecting imported
                                       meat and poultry products. OIA is also responsible for conducting system
                                       audits (also referred to as onsite audits) of a foreign government’s food
                                       regulatory program, which include a review of (1) establishments certified to
                                       export to the United States, (2) laboratories conducting analytical testing of
                                       products being exported to the United States, and (3) government controls
                                       and oversight to ensure that products are produced under requirements
                                       equivalent to U.S. inspection requirements. These review and reinspection
                                       activities form the basis of FSIS’ determinations of whether a country’s
                                       inspection system is equivalent to U.S. standards.

                                       Food safety equivalence evaluations are based on provisions of the
                                       Agreement on the Application of Sanitary and Phytosanitary Measures,
                                       which became effective in January 1995. Prior to this agreement, FSIS
                                       focused on individual establishments and evaluated whether foreign food
                                       safety systems were “at least equal to” the U.S. system. The principle
                                       underlying FSIS’ current import inspection activities is the “systems
                                       approach,” which evaluates the equivalence of the inspection system controls
                                       of each country. Regulations 16 codify FSIS’ responsibilities for evaluating
                                       foreign meat and poultry inspection systems. The burden for demonstrating
                                       equivalence rests with the exporting country and the importing country is free
                                       to set any level of protection it deems appropriate to control or eliminate a
                                       food safety hazard.

                                       FSIS evaluates the ongoing equivalency of foreign meat and poultry
                                       inspection systems through a process that consists of (1) document analysis,
                                       (2) onsite audit, and (3) port-of-entry product reinspection. Judgments of

15
     The Federal Meat Inspection Act and Poultry Products Inspection Act.
16
     Title 9, Code of Federal Regulations (C.F.R.) § 327, Imported Products, and 9 C.F.R.§ 381, Subpart T, Imported Poultry Products.

USDA/OIG-A/24601-08-Hy                                                                                                                  Page 1
                                       system equivalence are necessary for FSIS and the American public to
                                       develop and maintain trust in imported meat and poultry products.

                                       A foreign country must apply for and receive a determination of equivalency
                                       before it can export meat and poultry products to the United States. To make
                                       this determination, FSIS reviews documentation provided by the country and
                                       performs an onsite audit. After a country is determined to have an equivalent
                                       system and is eligible to export to the United States, FSIS relies on the
                                       country to provide effective oversight of food inspection activities and
                                       enforcement of U.S. requirements. However, FSIS continues to monitor the
                                       country’s activities. In addition to randomly sampling imported meat and
                                       poultry products, FSIS conducts onsite audits of the country’s inspection
                                       system to ensure that its procedures and standards remain equivalent.
                                       Reviewers visit certified establishments and focus on five areas of risk
                                       (i.e., animal    disease,     sanitation,    enforcement,     residue,   and
                                       slaughter/processing) to determine if the country’s inspection system remains
                                       equivalent. 17 These audits are generally conducted annually.

                                       If the monitoring audits identify critical weaknesses in the implementation
                                       and enforcement of key provisions, FSIS officials take a number of
                                       immediate actions to ensure that products from the country are consistent
                                       with FSIS’ public health requirements. These actions include compensating
                                       controls at ports of entry (e.g., increased reinspections and product sampling),
                                       and may include delistment of individual establishments, suspension of
                                       product categories from the country, or suspension of the entire country.
                                       These actions would remain in place until corrective actions have been
                                       completed and verified by the foreign government’s inspection officials.
                                       FSIS would then schedule a followup audit to confirm that the corrective
                                       actions implemented were effective to address the identified problems and
                                       the public health requirements are being maintained.

                                       The reinspection of imported meat and poultry meat and poultry products at
                                       U.S. ports of entry provides FSIS with a means of assessing the effectiveness
                                       of a foreign government’s inspection system while ensuring that only safe,
                                       wholesome, unadulterated, and properly labeled products enter U.S.
                                       commerce. A description of each lot arriving at any the official U.S. import
                                       inspection establishments is entered into the information system. Lots are
                                       routinely reinspected for transportation damage, labeling, proper certification,
                                       general condition, and accurate count. Further, in-depth reinspection is
                                       directed by FSIS’ information system, which stores reinspection results from
                                       all ports of entry for each country and establishment. The system may, for
                                       example, generate product examinations18 or residue and microbial

17
     As FSIS reviewers evaluate the certified establishments they determine whether they are acceptable or should be recommended for delistment.
18
     A product examination is an organoleptic type of inspection in which an inspector feels, smells, and visually examines exposed product samples to
     discover defects such as blood clots, bruises, bone fragments, ingesta, extraneous materials (wood, glass, chemicals, insects, etc.), hair/wool, hide,
     stains, pathologic lesions, and off condition.

USDA/OIG-A/24601-08-Hy                                                                                                                           Page 2
                   laboratory test assignments based on the compliance histories of the
                   establishments, countries, and products being presented for reinspection.
                   Products that pass reinspection are allowed to enter U.S. commerce; products
                   that do not pass are stamped “U.S. Refused Entry” and must be exported,
                   destroyed, relabeled or converted to animal food within 45 days.

                   In April 2007, the Chairman of the Committee on Agriculture, Nutrition, and
                   Forestry of the U.S. Senate requested that we evaluate the adequacy of FSIS’
                   inspection processes for meat and poultry imports to ensure the integrity of
                   the U.S. food supply. We also agreed to determine whether FSIS took
                   appropriate and timely actions to implement 51 prior Office of Inspector
                   General (OIG) audit recommendations regarding the imported meat and
                   poultry inspection program. Since 2000, OIG has issued four reports:

                   •     FSIS Imported Meat and Poultry Inspection Process Phase I, Audit
                         Report No. 24099-03-Hy, June 2000 containing 35 recommendations;

                   •     FSIS Imported Meat and Poultry Reinspection Process Phase II,
                         Audit Report  No.   24099-04-Hy, February   2003    containing
                         11 recommendations;

                   •     FSIS Imported Meat and Poultry Equivalence Determinations Phase III,
                         Audit Report No. 24099-05-Hy, December 2003 containing no
                         recommendations; and

                   •     FSIS Assessment of the Equivalence of the Canadian Inspection System,
                         Audit Report No. 24601-05-Hy, December 2005 containing
                         5 recommendations.

                    In September 2007, FSIS awarded a contract to build the agency’s new
                    Public Health Information System (PHIS) in order to better integrate and
                    consolidate its numerous applications that collect information on activities to
                    ensure the safety of meat, poultry, and egg products. FSIS plans to have the
                    export and import functions of this system ready for user acceptance testing
                    by the third quarter of 2009. The proposed system FSIS is developing for
                    these functions is to be a consolidated, interactive system that replaces the
                    current import information system and establishes an electronic certification
                    capability for exports. This system is also being proposed as the electronic
                    link for obtaining data from the Animal and Plant Health Inspection Service
                    and the Customs and Border Protection of the U.S. Department of Homeland
                    Security on import entries of meat, poultry, and egg products.




USDA/OIG-A/24601-08-Hy                                                                      Page 3
Objectives         The objective of our review was to evaluate the adequacy of FSIS’ inspection
                   processes (i.e., equivalence determinations, onsite audits, and product
                   reinspection at U.S. ports of entry) for meat and poultry imports to ensure the
                   integrity of the U.S. food supply. We also determined whether FSIS took
                   appropriate and timely actions to implement prior OIG audit
                   recommendations.




USDA/OIG-A/24601-08-Hy                                                                     Page 4
Findings and Recommendations
Section 1. Equivalence of Foreign Food Safety Systems

                                   OIA is responsible for determining a foreign country’s eligibility to export
                                   meat and poultry products to the United States and conducting system audits,
                                   which include reviewing a sample of exporting establishments. Fulfillment of
                                   these responsibilities assists the agency in ensuring that products are
                                   produced under requirements equivalent to U.S. inspection requirements.

                                   FSIS needs to strengthen the agency’s controls for assessing the equivalence
                                   of foreign countries’ food safety systems, specifically, the controls
                                   concerning the methodology used to select foreign establishments for review.
                                   In addition, FSIS should document the management controls implemented in
                                   response to two of our prior recommendations for evaluating deficiencies that
                                   question the equivalence of a foreign food safety system and performing
                                   enforcement audits. FSIS should also document the policy to perform onsite
                                   audits prior to receiving product from a new country (i.e., initial equivalence)
                                   or a suspended country (i.e., inspection system not equivalent to the United
                                   States).


Finding 1                          Methodology for Selecting Foreign Establishments to Review
                                   Needs Strengthening

                                   FSIS’ sample selection methodology is designed to find at least one deficient
                                   establishment if 20 percent of the universe of eligible establishments are
                                   deficient (i.e., a 20 percent error rate). However, FSIS officials could not
                                   provide information or documentation on how the agency decided that a
                                   20 percent error rate was reasonable and acceptable. We found that for three
                                   of the four countries we reviewed, FSIS did not follow the established
                                   methodology for selecting the minimum number of establishments to review
                                   as part of the routine onsite audits in 2006 and 2007. Because OIA does not
                                   have requirements for documenting deviations from its prescribed guidance,
                                   FSIS officials could not justify why FSIS reviewers did not visit the
                                   minimum number of establishments. As a result, FSIS has reduced assurance
                                   that it has a sufficient basis for assessing the equivalence of a country’s food
                                   safety system.

                                   According to FSIS’ established controls, 19 FSIS reviewers select a random
                                   sample that provides the agency with the statistical assurance, at the
                                   95 percent confidence level, that FSIS will find at least one deficient


19
     FSIS OIA’s Management Control Manual, November 2003

USDA/OIG-A/24601-08-Hy                                                                                      Page 5
                                        establishment if 20 percent of the universe of eligible establishments are
                                        deficient. 20

                                        In response to our inquiries, FSIS officials could not specifically explain or
                                        provide documentation on how the agency decided that a 20 percent error
                                        rate was reasonable and acceptable. FSIS officials described that the policy
                                        was based on sampling performed for State Cooperative Inspection Programs
                                        in 1992. FSIS officials explained that the 1992 policy for reviewing State
                                        programs included a sampling table similar to the one currently used for
                                        imports. FSIS needs to determine if the current 20 percent error rate provides
                                        a sound basis for evaluating the equivalence of a country’s inspection system
                                        and document the basis for the error rate accepted as reasonable.

                                        As designed, FSIS’ sample selection methodology is composed of two parts.
                                        The first part, a random sample of establishments, is derived from a statistical
                                        sample table based on the number of certified establishments in an exporting
                                        country. The second part, a targeted-judgmental sample, includes
                                        establishments with known problems based on findings from prior onsite
                                        audits, consumer complaints, or reinspection results at U.S. ports of entry
                                        recorded in FSIS’ information system.

                                        To provide statistical assurance that a country’s food safety system is
                                        equivalent to the U.S. standards, FSIS reviewers should visit the number of
                                        establishments identified in the sampling methodology. If there are more than
                                        10 establishments certified by the foreign government to export to the United
                                        States, then FSIS selects a sample of establishments to validate that the
                                        country’s inspection system is equivalent. If a foreign government has
                                        certified 10 or less establishments, the FSIS is to review all certified
                                        establishments. As noted in the following table, FSIS review officials did not
                                        visit the minimum number of establishments in Australia, Brazil, and Chile
                                        during the audits performed in 2006 and 2007. FSIS officials could not
                                        explain why FSIS reviewers did not always visit the minimum number of
                                        establishments in 2006. For 2007, FSIS officials explained that they used a
                                        draft, risk-based approach to select establishments. 21 Since the minimum
                                        number of establishments was not reviewed, we question whether FSIS had
                                        sufficient data to conclude that these countries’ food safety systems are
                                        equivalent to the U.S. system. FSIS’ review of foreign establishments is
                                        one-third of the agency’s process to determine whether a country is
                                        maintaining an equivalent inspection system. The remaining two-thirds are a
                                        review of laboratories and government controls.

20
     Through consultation with our statistician, we confirmed that the design of FSIS sample selection methodology provides the agency with this statistical
     assurance.
21
     Agency officials explained that this approach was not finalized; therefore, we did not perform a detailed examination of the risk-based approach.
     According to the January 30, 2007, draft “Guidelines for a Risk-Based Program for Verifying the Equivalence of Foreign Inspection Systems,” FSIS
     planned to use a variety of inputs in selecting foreign establishments for review. These inputs included such things as types and volume of product
     exported to the United States, past performance of an establishment’s food safety controls of public health significance, and delistments of or
     recommendations to delist foreign establishments.

USDA/OIG-A/24601-08-Hy                                                                                                                           Page 6
                                                                                                    Minimum                Random     Random
                                                                         Number of                   Random                 Sample     Sample
                                                                       Establishments               Sample for             Reviewed   Reviewed
                                                     Country             2006/2007                  2006/2007               in 2006    in 2007
                                                     Australia            130/127                     13/13                    10         8
                                                      Brazil               22/23                      11/11                    8          8
                                                      Chile                  3/5                      All/All                  3          3

                                        FSIS officials explained that they do not document the basis for the selected
                                        sample of establishments (i.e., random statistical versus judgmental). This
                                        occurred because FSIS did not have protocols for documenting which
                                        establishments are selected for review. In addition, FSIS does not have
                                        criteria for evaluating reinspection results to determine which establishments
                                        should be judgmentally selected for review. FSIS also did not have a process
                                        for analyzing how information from a country should be considered in the
                                        judgmental sample of establishments (e.g., establishments with a pattern of
                                        being decertified and subsequently recertified). This occurred because FSIS
                                        did not have criteria for judgmentally selecting foreign establishments for
                                        review. Accordingly, we could not validate that FSIS selected a sufficient
                                        number of establishments randomly to assess the equivalence of the country’s
                                        food safety system or corroborate the propriety of FSIS’ decisions for
                                        judgmentally selecting specific establishments.

                                        At the time FSIS was planning the 2007 audit of Chile, five establishments
                                        were certified as eligible to export product to the United States. According to
                                        established controls, 22 FSIS should have reviewed all of the establishments.
                                        However, FSIS only included three establishments in the sample. Of the three
                                        establishments reviewed, only one was exporting product to the United
                                        States, 23 approximately 1.3 million pounds of beef products (e.g., boneless
                                        cuts and trimmings) through August 2007. According to data in FSIS’
                                        information system, the other two establishments not reviewed exported
                                        approximately 1.4 million pounds of beef and pork products (e.g., bone-in
                                        and boneless cuts) through August 2007. FSIS did not visit these two
                                        establishments as part of the April 2007 audit. The prior audit of Chile in
                                        2006 reported deficiencies in the operations of these two establishments. For
                                        example, according to the 2006 audit report, FSIS had noted deficiencies in
                                        both establishments’ implementation and enforcement of HACCP
                                        requirements. According to FSIS officials, the scope of the deficiencies noted
                                        in 2006 was not sufficient to require that these two establishments be a part
                                        of the 2007 audit (e.g., the establishments were not recommended for
                                        delistment). FSIS officials also explained that they used a risk-based
                                        approach to select establishments in 2007.

22
     FSIS OIA’s Management Control Manual, November 2003
23
     The other two plants were included in the review because they were eligible to export product to the United States.

USDA/OIG-A/24601-08-Hy                                                                                                                  Page 7
                   FSIS needs to develop and implement the necessary protocols to ensure the
                   methodology used for selecting establishments is consistently followed,
                   deviations from the established methodology are justified, and the basis for
                   the selected sample is documented.

Recommendation 1

                   Determine whether the current 20 percent error rate provides a sound basis
                   for evaluating the equivalence of a country’s food safety system and
                   document the basis for the error rate accepted as reasonable.

                   Agency Response.

                   The establishment selection tool is just one of the many tools currently in use
                   as part of the annual equivalence audit process. Using OIA’s
                   well-documented “triad” approach, prior to each audit International Audit
                   Staff auditors collect and analyze all available information related to the
                   particular country to be audited. Port of entry results, consumer complaints,
                   prior audit history, historical and pending equivalence determination, and any
                   other available information is used to determine the scope of the upcoming
                   audit. All of this information is documented in the agenda for the “Pre-Audit
                   Conference.” Therefore, the establishment selection chart is not considered to
                   be a “stand alone” instrument to determine equivalence, but as a guide to be
                   used along with all other available information to determine the appropriate
                   number of establishments to visit during the onsite audit in consideration of
                   the overall risk related to the products produced, amount exported to the U.S.,
                   and other historical information. On occasion the number of establishments
                   selected will be greater than the number recommended in the establishment
                   chart, and on other occasions the number of establishments selected will be
                   less. FSIS will develop and implement a process to document the reasons for
                   the number of establishments selected for onsite audit as part of the agenda
                   for the Pre-Audit Conference. A description of this process will be included
                   in the OIA Management Control Manual. FSIS expects to complete these
                   actions by October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 2

                   Develop and implement protocols for documenting deviations from the
                   guidelines on visiting the minimum number of establishments as part of the
                   onsite audit. The documentation should provide sufficient, competent
                   evidence that the establishments visited provide a reasonable basis for
USDA/OIG-A/24601-08-Hy                                                                     Page 8
                   concluding that the country’s food safety system remains equivalent to the
                   U.S. system.

                   Agency Response.

                   FSIS will develop and implement a process to document the reasons for the
                   number of establishments selected for onsite audit as part of the agenda for
                   the Pre-Audit Conference. A description of this process will be included in
                   the OIA Management Control Manual. FSIS expects to complete these
                   actions by October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 3

                   Develop and implement protocols for documenting which establishments are
                   selected for review as part of the: (a) random sample and (b) judgmental
                   sample. The protocols should also specify where this information will be
                   documented (e.g., in the onsite audit report).

                   Agency Response.

                   FSIS will develop and implement a protocol for documenting the reasons for
                   each establishment that is included as part of the onsite audit. This
                   information will be documented as part of the agenda for the Pre-Audit
                   Conference. A description of this process will be included in the OIA
                   Management Control Manual. FSIS expects to complete these actions by
                   October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 4

                   Develop and implement criteria for judgmentally selecting foreign
                   establishments for onsite review. The selection criteria should consider such
                   information as (a) reinspection results from FSIS’ information system, or any
                   subsequent system, (b) deficiencies noted in prior onsite audits,
                   (c) establishments with a pattern of being decertified and subsequently
                   recertified, and (d) and any other appropriate evaluation factors.




USDA/OIG-A/24601-08-Hy                                                                   Page 9
                                      Agency Response.

                                      FSIS will develop and implement a protocol for judgmentally selecting
                                      foreign establishments for onsite review. A description of this process will be
                                      included in the OIA Management Control Manual. FSIS expects to complete
                                      these actions by October 31, 2008.

                                      OIG Position.

                                      We accept FSIS’ management decision.


Finding 2                             Prior Recommendations Not Fully Implemented

                                      FSIS did not fully implement two of the five recommendations from one of
                                      our prior reports, 24 which were intended to strengthen the overall equivalence
                                      determination process. These recommendations required FSIS to implement
                                      protocols for: (1) determining which equivalence deficiencies would question
                                      a country’s overall equivalence determination and (2) postponing and
                                      cancelling a scheduled enforcement audit. 25 This occurred because FSIS did
                                      not make a priority of documenting these protocols in OIA’s management
                                      controls. We found that the protocols (see Exhibit A) were implemented
                                      through actions that the agency took (e.g., increased port-of-entry testing and
                                      enforcement audits scheduled) in response to equivalence concerns regarding
                                      the Danish food safety system in 2007. However, since the protocols are not
                                      documented in OIA’s management controls, FSIS has reduced assurance that
                                      correct decisions will be consistently made when enforcement audits are
                                      delayed or a country’s equivalence is in question.

                                      In our prior reports, OIG made 51 recommendations to strengthen FSIS’
                                      regulatory oversight of imported meat and poultry products. For these 51
                                      recommendations, FSIS provided the Office of the Chief Financial Officer
                                      (OCFO) with evidence that the agreed upon corrective actions had been
                                      implemented. We found that FSIS adequately implemented the corrective
                                      actions reported to OCFO for 49 of the 51 recommendations. For the
                                      remaining two recommendations, FSIS had not documented the protocols
                                      provided to OCFO in OIA’s management controls.

                                      We previously reported that FSIS did not timely address serious concerns
                                      with a country’s food safety system even though high-level agency officials
                                      documented the potential for compromising public health. Timely action had
                                      not been taken because FSIS did not have protocols or guidelines for
                                      evaluating deficiencies in a country’s food safety system that could

24
     Assessment of the Equivalence of the Canadian Inspection System, Audit Report No. 24601-05-Hy, December 2005.
25
     FSIS currently refers to these audits as “followup” or “special emphasis” audits.

USDA/OIG-A/24601-08-Hy                                                                                               Page 10
                                        jeopardize a country’s overall equivalence determination. We also found that
                                        FSIS did not conduct an enforcement audit of a country’s food safety system
                                        to ensure noted deficiencies were corrected. Enforcement audits can lead to a
                                        determination that a country’s inspection system is not equivalent to U.S.
                                        standards and, thus, not eligible to export to the United States.

                                        In FSIS’ response to our prior report, the agency agreed to develop and
                                        implement these protocols by March 31, 2006. In the documentation
                                        provided to OCFO to close these recommendations, FSIS provided a detailed
                                        description of how these protocols would be implemented (see Exhibit A).
                                        However, FSIS did not follow through to include these protocols in OIA’s
                                        Management Control Manual. (The most recent version of this manual is
                                        dated November 2003 with updates to certain chapters in March 2004.) An
                                        FSIS official explained that documenting the protocols in the management
                                        controls was not a priority due to OIA staff shortages. FSIS officials agreed
                                        that these protocols should be documented, and in January 2008, the agency
                                        hired an intern to assist with this process.

                                        In our review of the protocol to postpone or cancel an enforcement audit, we
                                        found that FSIS included a description of the documentation that would be
                                        prepared to support the decisions made. Similar direction was not found in
                                        the protocol on questioning a country’s equivalence. FSIS should include in
                                        this protocol a description of how FSIS officials will document and justify
                                        the decisions made. This would provide a basis for understanding decisions
                                        to increase port of entry testing as compared to suspending trade with a
                                        country.

                                        In response to our inquiries, FSIS demonstrated that the two recommended
                                        protocols were implemented through equivalency concerns FSIS raised
                                        regarding the Danish food safety system in 2007. In May 2007, FSIS
                                        performed a routine audit of the Danish inspection system. For the seven
                                        slaughter and processing establishments reviewed, 26 FSIS recommended that
                                        Danish officials issue each establishment a Notice of Intent to Delist because
                                        of potential product contamination, issues with HACCP systems and SSOPs,
                                        and insufficient government oversight. The issuance of a Notice of Intent to
                                        Delist means that no direct product contamination was observed, but all
                                        documented deficiencies must be corrected by the establishment and verified
                                        by the government inspection program no later than 30 days after the initial
                                        audit. This corrective action and verification information must then be
                                        provided to FSIS, or action is taken to remove the establishment(s) from the
                                        list of establishments approved to export product to the United States.




26
     FSIS reviewed a total of eight establishments. The eighth establishment was a cold storage facility.

USDA/OIG-A/24601-08-Hy                                                                                       Page 11
                                       As a result of the findings from the May 2007 audit, FSIS began to perform
                                       product examinations 27 on 100 percent of the product presented for
                                       reinspection. This increased level of reinspection continued until the Danish
                                       Government submitted sufficient documentation that adequate corrective
                                       actions had been taken. 28 As a result of this action, FSIS stopped performing
                                       product examinations on 100 percent of the product presented on
                                       June 20, 2007. However, to confirm implementation of the corrective actions,
                                       FSIS required the Danish Government to provide evidence of supervisory
                                       review of the eligible establishments. According to data we obtained from
                                       FSIS information system through August 2007, just over 1,600 lots 29 of
                                       Danish pork products totaling over 34 million pounds were presented for
                                       reinspection from May 1 through August 31, 2007.

                                       In September 2007, FSIS notified the Danish Government that FSIS would
                                       perform a followup (i.e., enforcement) audit to verify that the corrective
                                       actions were implemented. The Danish Government requested that this audit
                                       be postponed 30 to allow additional time for it to satisfactorily address all
                                       issues from the previous audit. FSIS honored this request and completed the
                                       followup audit during 2008. 31 As a compensating control, FSIS continued to
                                       require the Danish Government to provide evidence of supervisory review of
                                       the eligible establishments. 32

                                       In order to ensure that the protocols will be followed, when needed, FSIS
                                       should document them as part of its management controls. The protocol for
                                       questioning a country’s equivalence should also describe how FSIS officials
                                       will document and justify the decisions made.

Recommendation 5

                                       Revise OIA’s Management Control Manual to include the protocols for
                                       (1) determining which equivalence deficiencies would question a country’s
                                       overall equivalence determination and (2) postponing and cancelling a
                                       scheduled enforcement audit. The protocol for questioning country
                                       equivalence should also describe how FSIS officials will document and
                                       justify the decisions made.



27
     A product examination is an organoleptic type of inspection in which an inspector feels, smells, and visually examines exposed product samples to
     discover defects such as blood clots, bruises, bone fragments, ingesta, extraneous materials (wood, glass, chemicals, insects, etc.), hair/wool, hide,
     stains, pathologic lesions, and off condition.
28
     Data in FSIS’ information system confirmed that FSIS performed product examinations on all shipments from Denmark from May 15 to June 20, 2007.
29
     Of these lots, seven were rejected for such reasons as transportation damage and missing shipping marks. The amount rejected totaled more than 70,000
     pounds.
30
     The decision to postpone the followup audit in order to allow Denmark to satisfactorily address prior issues is consistent with information FSIS
     provided to OCFO on why an enforcement audit would be postponed (see Exhibit A).
31
     FSIS issued this report in final in July 2008.
32
     The additional testing of Danish product subsequent to the May 2007 findings and compensating controls that were in effect prior to the followup
     review are decisions that are consistent with information FSIS provided to OCFO for determining deficiencies that question overall equivalence (see
     Exhibit A).

USDA/OIG-A/24601-08-Hy                                                                                                                         Page 12
                                      Agency Response.

                                      FSIS has developed a protocol for determining the equivalence of a countries
                                      foreign inspection system (see Exhibit A). Upon completion of every audit,
                                      FSIS personnel review the findings of the audit team. In the event that
                                      problems are identified, the OIA management team will consider the audit
                                      findings as well as other variables such as audit history, products exported,
                                      etc., to determine whether or not an enforcement measure is warranted. FSIS
                                      also has developed a protocol for postponing or cancelling a scheduled
                                      enforcement audit (see Exhibit A). FSIS will include these protocols in the
                                      revised OIA management controls manual. FSIS expects to complete these
                                      actions by October 31, 2008.

                                      OIG Position.

                                      We accept FSIS’ management decision.




Finding 3                             Policy for Performing Onsite Audits for New and Suspended
                                      Countries Not Documented

                                      FSIS officials explained that the agency’s policy is to perform an onsite audit
                                      to ensure a country’s food safety system remains equivalent to U.S. standards
                                      prior to (1) a new country’s first shipment and (2) a suspended country
                                      resuming trade with the United States. However, FSIS officials also
                                      confirmed that this policy was not part of their written procedures but could
                                      not explain why. Documented procedures in these areas are critical because
                                      an extended period of time can transpire (e.g., over 2 years) between FSIS’
                                      onsite audit of a country’s equivalence and the date of the country’s first
                                      shipment. In addition, countries may be suspended for extended periods of
                                      time (e.g., 4 years). As a result, FSIS does not have current information to
                                      mitigate the risk that product not meeting U.S. standards may be exported
                                      and a country’s food safety system may not remain equivalent to the United
                                      States.

                                      Departmental regulation requires agencies to ensure controls for processes
                                      supporting agency programs and operations are documented and
                                      commensurate with program risk. 33

                                      To mitigate the risk that ineligible product is potentially exported to the
                                      United States or a country’s food safety system is not equivalent, FSIS should
                                      document procedures to conduct onsite audits prior to the first shipments of


33
     Departmental Regulation 1110-002, Management Accountability and Control, dated April 14, 2004.

USDA/OIG-A/24601-08-Hy                                                                                      Page 13
                                       new countries or countries that had been suspended. We noted 16 countries 34
                                       currently approved as equivalent to U.S. standards are not currently exporting
                                       product to the United States. According to FSIS officials, one country has not
                                       exported product to the United States since 1999.

                                       •     New Countries

                                             FSIS determines the equivalency of foreign meat and poultry inspection
                                             systems through a process that consists of document analysis and onsite
                                             audit. After a country is determined to have an equivalent system and is
                                             eligible to export to the United States, FSIS relies on the country to
                                             provide effective oversight of food inspection activities and enforcement
                                             of U.S. requirements.

                                             In April 2006, FSIS published a rule 35 concluding that China was eligible
                                             to export processed poultry products to the United States “only if they are
                                             processed in certified establishments in the People’s Republic of China
                                             from poultry slaughtered in certified slaughter establishments in other
                                             countries eligible to export poultry to the United States.” FSIS performed
                                             an onsite audit to determine that China had an equivalent inspection
                                             system for processing poultry products in December 2004. In response to
                                             our inquiries, FSIS officials explained that they followed their established
                                             processes for assessing the equivalence of the Chinese food safety
                                             system; they did not intend to do anything special regarding this
                                             assessment in an effort to treat China in a manner consistent with other
                                             countries.

                                             China has not certified any establishments as eligible to export processed
                                             poultry products to the United States. Accordingly, no product from
                                             China has been presented to FSIS for reinspection. However, an extended
                                             period of time has transpired since FSIS’ onsite audit (December 2004) to
                                             determine China’s food safety system for processed poultry products is
                                             equivalent to U.S. standards. To ensure onsite audits are performed prior
                                             to a new country’s first shipment, such as China, FSIS should document
                                             this policy in the agency’s procedures. The procedures should specify the
                                             timeframe in which this onsite audit should be performed.

                                             In June 2006, FSIS determined that China’s system for slaughtering
                                             domestic poultry was equivalent to U.S. standards. FSIS based this
                                             determination, in part, on an onsite audit of slaughter operations
                                             performed in August 2005. As a next step, FSIS would issue a proposed
                                             rule that requests public comment on whether China’s poultry slaughter
                                             operations should be considered equivalent. However, additional

34
     The 16 countries include: (1) the Czech Republic, (2) Slovenia, (3) Romania, (4) Austria, (5) Slovakia, (6) Switzerland, (7) Hong Kong, (8) Paraguay,
     (9) Belize, (10) El Salvador, (11) Guatemala, (12) Norway, (13) Taiwan, (14) Venezuela, (15) Yugoslavia, and (16) the Dominican Republic.
35
     Federal Register, Volume 71, Number 78, April 24, 2006.

USDA/OIG-A/24601-08-Hy                                                                                                                        Page 14
                                           measures currently prevent the import of poultry from China
                                           (i.e., processed product or product from domestic Chinese poultry).
                                           According to information maintained by the Animal and Plant Health
                                           Inspection Service, domestic Chinese poultry and poultry products cannot
                                           be imported into the United States due to the country’s disease status
                                           (i.e., currently infected with highly pathogenic avian influenza, subtype
                                           H5N1). Further, the Committee Report 36 for the appropriations
                                           authorized for FSIS for fiscal year 2008 prohibits the use of appropriated
                                           funds to establish or implement any rule allowing poultry products from
                                           China into the United States.

                                      •    Suspended Countries

                                           According to FSIS officials, suspended countries would receive an onsite
                                           audit before the country resumes exporting product to the United States.
                                           OIA’s Assistant Administrator verbally communicated this policy to
                                           staff; however, the policy has not been documented in OIA’s
                                           management controls.

                                           FSIS demonstrated that it correctly implemented this policy based on
                                           actions the agency took before allowing Austrian establishments to export
                                           product to the United States. In 2003, FSIS suspended Austria’s ability to
                                           export product because the Austrian government did not maintain an
                                           inspection system equivalent to the United States. In December 2007,
                                           FSIS withdrew its suspension of imports of Austrian meat products based,
                                           in part, on an onsite audit performed in September 2007. According to
                                           data we obtained from FSIS’ information system, Austria did not export
                                           product to the United States from January 2005 through August 2007.

                                           The policy for performing onsite audits before suspended countries
                                           resume exporting product to the United States is not documented. As a
                                           result, FSIS may not be appropriately mitigating the risk that product not
                                           meeting U.S. standards is exported and a country’s inspection system
                                           remains equivalent to the United States.

                                      Because of changes in conditions that can occur in new and suspended
                                      countries, FSIS should formalize procedures for conducting onsite audits
                                      within established timeframes prior to the first shipments from new countries
                                      and countries that had been suspended. The procedures for suspended
                                      countries should define the period of time that would cause an onsite audit to
                                      be performed before the country resumes exporting product to the United
                                      States.


36
     House of Representatives Report 110-258, Agriculture, Rural Development, Food and Drug Administration, and Related Agencies Appropriations Bill,
     2008.

USDA/OIG-A/24601-08-Hy                                                                                                                   Page 15
Recommendation 6

                   Formalize procedures to conduct onsite audits, within a specified timeframe,
                   prior to the first shipments from new countries in OIA’s Management Control
                   Manual.

                   Agency Response.

                   FSIS agrees with this recommendation. All countries that are eligible to ship
                   are audited on a regular basis according to a protocol currently outlined in the
                   manual. However, OIA had not specifically identified this circumstance in
                   the protocol. Therefore, FSIS will include a revised protocol in the manual.
                   FSIS expects to complete these actions by October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 7

                   Formalize procedures to conduct onsite audits, within a specified timeframe,
                   prior to the first shipments from countries that had been suspended in OIA’s
                   Management Control Manual. These procedures should define the period of
                   time that would cause an onsite audit to be performed before the country
                   resumes exporting product to the United States.

                   Agency Response.

                   FSIS agrees with this recommendation. Currently, FSIS does ensure that a
                   country has been audited prior to lifting a suspension that has been put in
                   place to ensure that product will not enter the United States. A written
                   protocol will be added to the manual. FSIS expects to complete these actions
                   by October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.




USDA/OIG-A/24601-08-Hy                                                                    Page 16
Section 2. Reinspection of Meat and Poultry Products Imported into the United States

                     The reinspection of imported meat and poultry products at U.S. ports of entry
                     by FSIS inspection personnel helps assess the effectiveness of a foreign
                     government's food safety system and ensures that only wholesome,
                     unadulterated, and properly labeled products enter U.S. commerce. To that
                     end, FSIS is given the responsibility to randomly select samples of imported
                     meat and poultry products and perform the following types of reinspection
                     activities, as appropriate: product examinations, net weight compliance,
                     condition of container, incubation of shelf-stable products, special
                     examinations, and laboratory analyses.

                     When products are presented to FSIS, the FSIS information system assigns
                     one of four levels of reinspection to the product presented: skipped, normal,
                     intensified, or increased. Skipped inspection signifies the lot will be
                     reinspected for transportation damage, labeling, proper certification, general
                     condition, and accurate count. Under normal inspection, the lot has been
                     randomly selected for physical reinspection, which can include laboratory
                     analyses. Physical reinspection activities determine such things as whether
                     the product is contaminated (e.g., fecal, metal) or otherwise not in good
                     condition (e.g., spoiled). Laboratory analyses test for microbial violations
                     (e.g., Escherichia coli O157:H7 (E. coli)) or residues (e.g., drugs and
                     chemicals) above tolerable limits. Intensified inspection signifies a previous
                     failure to meet U.S. requirements. Under intensified level of inspection, lots
                     are held by FSIS pending results for the type of inspection in question. If the
                     level of inspection is increased, FSIS management officials have decided to
                     perform reinspection activities above the normal level of inspection for the
                     lot based on problems associated with the specific product, foreign
                     establishment, or country.

                     FSIS needs to strengthen agency controls for reinspecting meat and poultry
                     products at U.S. ports of entry. Specifically, FSIS should determine the
                     number of intensified inspections for physical and laboratory failures that
                     provide the appropriate level of protection to ensure the safety and
                     wholesomeness of imported products. In addition, FSIS needs to strengthen
                     procedures for: (1) specifying the order of performing reinspection activities,
                     (2) verifying a lot’s production date, (3) analyzing data in FSIS’ import
                     information system, and (4) managing noncompliance records.


Finding 4            Basis for the Number of Intensified Inspections Needed

                     When product from an eligible foreign establishment fails reinspection at
                     U.S. ports of entry, FSIS intensifies the reinspection of subsequent shipments

USDA/OIG-A/24601-08-Hy                                                                     Page 17
                                        of the same type of product from that establishment. FSIS’ information
                                        system is programmed to select a certain number of subsequent shipments
                                        from that establishment to perform the same type of inspection. For example,
                                        FSIS reinspects 10 subsequent shipments when product is contaminated with
                                        fecal material. FSIS has used this practice for 25 years. The foundation of the
                                        practice was traced to the June 1983 report by FSIS’ Import Inspection Task
                                        Force. As a result, FSIS has reduced assurance that intensified inspections
                                        provide the appropriate level of protection to ensure the safety and
                                        wholesomeness of imported products entering the United States.

                                        Intensified inspections are triggered after a product fails to pass reinspections
                                        for physical and laboratory testing. According to the programming of the
                                        information system, if a product fails during the intensified inspection period,
                                        the counter is reset. According to FSIS officials, when the agency
                                        reprogrammed the information system in 2002, statisticians evaluated the
                                        number of intensified inspections for physical and laboratory failures.

                                        •     For physical failures, the FSIS information system triggers the same type
                                              of inspection for 10 consecutive shipments of the same type of product.
                                              Physical failures occur when FSIS finds the product to be contaminated
                                              (e.g., fecal, metal, grease), be of unsound condition (e.g., spoiled) or
                                              contain processing defects (e.g., blood clots, lung tissue, bones).

                                        •     For laboratory failures, the level of inspection will return to normal after
                                              15 consecutive shipments (and 15 times the weight of the failed lot) pass
                                              the same type of laboratory analysis. 37 Laboratory failures occur when
                                              FSIS finds the product positive for microbial violations (e.g., E.-coli,
                                              Salmonella, Listeria monocytogenes) or contains residues (e.g., drugs and
                                              chemicals) above tolerable limits.

                                        FSIS needs to determine the number of intensified inspections for physical
                                        and laboratory failures that provide the appropriate level of protection to
                                        ensure the safety and wholesomeness of imported products. As part of this
                                        determination, FSIS should also document any needed revisions to
                                        procedures for intensified inspections.

                                        We confirmed that FSIS’ information system does trigger intensified
                                        inspections for physical and laboratory failures as described; however,
                                        documentation of this intensified testing in the system is not clear. We found
                                        that some lots that were subject to intensified testing were not recorded as
                                        receiving an intensified inspection assignment but were counted toward the
                                        required number of shipments for intensified inspection. For example, as part
                                        of one physical failure, the information showed nine lots labeled as

37
     To return to the normal level of inspection, 15 consecutive shipments must pass the same the type of analysis. If the weight of these 15 shipments is not
     equal to 15 times the weight of the lot that originally failed, additional shipments must be tested.

USDA/OIG-A/24601-08-Hy                                                                                                                           Page 18
                   “intensified status” and one lot (i.e., the seventh lot) labeled as “scheduled
                   inspection.” FSIS officials acknowledged that this could be confusing and
                   agreed with the need to accurately document the level of reinspection being
                   performed in the agency’s information system. FSIS officials plan to clarify
                   this in the new import information system that is currently being developed.
                   As part of the new import information system, FSIS should ensure that
                   scheduled inspections are suspended when the level of inspection is
                   intensified.

Recommendation 8

                   Determine the appropriate number of intensified inspections for physical and
                   laboratory failures that ensure the safety and wholesomeness of imported
                   products and document the necessary revisions to procedures for intensified
                   inspections.

                   Agency Response.

                   FSIS concurs with this recommendation. FSIS will determine the appropriate
                   number of intensified inspections following physical and laboratory failures
                   needed to ensure the safety and wholesomeness of imported products and will
                   document the necessary revisions to procedures for intensified inspections.
                   FSIS expects to complete these actions by October 31, 2008.

                   OIG Position.

                   We accept FSIS’ management decision.


Recommendation 9

                   Clearly document the level of reinspection being performed on imported
                   product in FSIS’ information system and ensure that scheduled inspections
                   are suspended when the level of inspection is intensified.

                   Agency Response.

                   FSIS concurs with this recommendation. In the forthcoming PHIS, FSIS will
                   clearly document the level of reinspection being performed on imported
                   product and ensure that scheduled inspections are suspended when the level
                   of inspection is intensified. FSIS expects to complete these actions by
                   December 31, 2009.

                   OIG Position.

                   We accept FSIS’ management decision.
USDA/OIG-A/24601-08-Hy                                                                  Page 19
Finding 5                              Physical Reinspections Not Required to be Performed Before
                                       Skipped Assignments

                                       When shipments contain multiple lots 38 of the same type of product that
                                       include both normal and skipped levels of reinspection, FSIS inspection
                                       personnel perform the skip assignments before the physical reinspection. This
                                       occurred because FSIS procedures did not require the physical reinspection to
                                       be performed first. According to FSIS officials, skipped assignments are done
                                       first because they can be completed quickly. These lots of product are then
                                       released into U.S. commerce and would not be available for additional
                                       inspections. As a result, FSIS has reduced assurance that the appropriate
                                       actions were taken prior to imported products being allowed to enter U.S.
                                       commerce.

                                       During a skipped reinspection, product from the lot is not physically
                                       examined; only the outside of the box is examined for general condition (e.g.,
                                       transportation damage, labeling). However, during a physical reinspection,
                                       the FSIS inspector conducts such tests as product examinations, which
                                       requires the inspector to feel, smell, and visually examine the exposed
                                       product for things like blood clots, hair, bruises, and fecal material on the
                                       product. When an inspector discovers defects during a physical reinspection,
                                       the lot is refused entry into the U.S. and the inspector can perform additional
                                       physical reinspection (i.e., an unscheduled inspection) on the skipped lots.
                                       However, because FSIS processes skipped lots first and immediately releases
                                       them into U.S. commerce, the inspectors lack assurance that the skipped lots
                                       from the same shipment are free of defects.

                                       We randomly selected 94 lots associated with 73 shipments from Australia,
                                       Canada, Brazil, and Chile that had been rejected between January 1, 2005 and
                                       August 31, 2007, at the 9 import inspection establishments we visited. 39 Of
                                       the 73 shipments, 35 shipments contained 43 lots 40 that had a physical failure
                                       for such things as fecal contamination, processing defects (e.g., blood clots),
                                       excess hair, and labeling defects. 41 Of these 35 shipments, 12 had skipped
                                       lots that contained approximately 325,000 pounds of lamb, mutton, beef, and
                                       goat from Australia and Brazil of the same type of product that was rejected.
                                       These 12 lots were released into U.S. commerce without the same type of
                                       reinspection as those lots that failed physical reinspection.


38
     A shipment can contain one or more lots of product. A lot is a group of similarly processed and packaged products (e.g., boxed, frozen boneless beef)
     from one establishment in a country.
39
     We randomly selected 10 rejected lots for each country per import inspection establishments in our sample. If 10 lots had not been rejected during the
     scope of our review, we reviewed all that had been rejected. See the Scope and Methodology section of this report for further explanation of our
     sampling methodology.
40
     The other 51 physical failures were for such things as labeling defects, missing or incorrect shipping marks, and transportation damage.
41
     This is based on information recorded in FSIS’ information system and documentation available at the import inspection establishments we visited.

USDA/OIG-A/24601-08-Hy                                                                                                                         Page 20
Recommendation 10

                    Develop and implement procedures that require inspectors to perform
                    physical reinspections first and for FSIS import inspection personnel to
                    perform unscheduled inspections on skipped lots associated with lots that
                    failed reinspection.

                    Agency Response.

                    FSIS concurs with this recommendation and has taken steps to implement it.
                    Instructions to field personnel have been issued directing them to hold all
                    assignments associated with lots of product presented for inspection from a
                    single establishment, and to perform all physical inspection assignments
                    before skip lot assignments are processed. In this manner, results of physical
                    inspection decisions can determine the need to perform a physical inspection
                    of skip lot assignments. The Import Inspection Division is documenting these
                    instructions as a procedural change within the Import Manual of Procedures.
                    FSIS expects to complete these actions by October 31, 2008.

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 11

                    Take the appropriate action on the approximately 325,000 pounds of product
                    from the 12 skipped lots associated with lots that failed physical reinspection.

                    Agency Response.

                    FSIS requests that OIG identify the 43 lots of imported product that it found
                    to have been recorded for physical examination failure, in order to determine
                    if product associated with the corresponding 12 skip lots represents a food
                    safety hazard, or constitutes misbranding or economic adulteration, and to
                    determine whether follow-up action is needed. FSIS will organize a recall
                    committee to determine the requirements for a recall action on the 12 skip
                    lots if analysis of the data on the 43 failed lots indicates a need. FSIS expects
                    to complete these actions by October 31, 2008.

                    OIG Position.

                    We accept FSIS’ management decision. We will provide the identity of the
                    43 lots in a separate memorandum.




USDA/OIG-A/24601-08-Hy                                                                      Page 21
Finding 6                               Procedures to Assist Inspectors’ Validation of a Lot’s Production
                                        Date Not Documented

                                        FSIS does not have documented procedures to guide inspectors’ decisions on
                                        what data sources to use for a lot’s production date. According to FSIS
                                        officials, when product is received from a delisted establishment, 42 import
                                        inspection personnel have been verbally instructed to use the health
                                        certificate, product label, or shipping carton to verify that the lot’s production
                                        dates are within the eligible period. If these items do not substantiate the
                                        product’s eligibility, import inspection personnel are to consult with their
                                        supervisor or FSIS headquarters. 43 If the production date cannot be verified
                                        or if the product was produced during an ineligible period the shipment will
                                        be refused. Without documented procedures, FSIS has reduced assurance that
                                        the appropriate data sources are used to ensure that only eligible products are
                                        imported into the United States.

                                        When FSIS inspection personnel receive product from a delisted
                                        establishment, FSIS inspection personnel must enter the lot’s date of
                                        production to ensure that product was produced during an eligible period.
                                        However, foreign establishments are not required to provide the lot’s
                                        production date(s). FSIS regulation does not require production dates to be
                                        certified by the foreign countries; however, FSIS inspection personnel have
                                        the authority to hold shipments until the eligibility of the product is verified.
                                        This includes requesting the foreign government to provide productions dates
                                        for specific shipments. A lot’s production date, however, could facilitate trace
                                        back for such things as product recalls. FSIS should conduct an assessment,
                                        including any other appropriate FSIS units, to determine whether foreign
                                        establishments should be required to provide the lot’s production date(s).

                                        By analyzing data in FSIS’ information system, 44 we identified 38 shipments
                                        from a delisted foreign establishment that did not appear to follow this verbal
                                        instruction. We found that a Brazilian establishment was delisted from
                                        May 6, 2005 to June 28, 2005. This establishment exported 39 lots of beef
                                        product totaling almost 1.6 million pounds to the United States from
                                        September 19, 2005 to January 10, 2006. According to data in FSIS’
                                        information system, all 39 lots were produced by the establishment on
                                        June 29, 2005. We question whether this establishment would produce
                                        1.6 million pounds of product in a single day based on its export history.
                                        According to data in FSIS’ information system, an average day’s production
                                        from this establishment totaled approximately 100,000 pounds.

42
     A delisted establishment is one that is ineligible to export product to the United States. The information system is coded to notify inspectors that the
     establishment is delisted.
43
     FSIS officials did not have an explanation as to why this instruction was not documented.
44
     FSIS could not provide source documentation that we could use to validate the date in the information system. This source documentation was deleted
     according to FSIS record retention requirements.

USDA/OIG-A/24601-08-Hy                                                                                                                           Page 22
Recommendation 12

                    Document the procedures to guide inspectors’ decisions on what data sources
                    to use for a shipment’s production date.

                    Agency Response.

                    FSIS has already taken steps related to this recommendation. On
                    February 28, 2008, an import notice was issued to field personnel that
                    provided instructions on what information from shipping documentation and
                    containers can and cannot be used to identify product production dates, and
                    what procedures to follow to document that information in the Automated
                    Import Information System, and to generate an inspection assignment for a
                    delisted or delisted and relisted foreign establishment.

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 13

                    Implement an edit check in the information system, or any subsequent
                    revision, to validate that inspectors used an adequate data source to verify a
                    shipment’s production date.

                    Agency Response.

                    FSIS concurs with this recommendation. FSIS will implement an edit check
                    in the PHIS to validate that inspectors used an adequate data source to verify
                    a shipment’s production date. FSIS expects to complete this action by
                    December 31, 2009.

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 14

                    Perform an assessment, including any other appropriate FSIS units, to
                    determine whether foreign establishments should be required to provide the
                    lot’s production date.




USDA/OIG-A/24601-08-Hy                                                                    Page 23
                                    Agency Response.

                                    FSIS regulations do not require domestic establishments to identify lots of
                                    product according to production dates. According to the national treatment
                                    provisions of the World Trade Organization Agreement on Sanitary and
                                    Phytosanitary Measures, to which the United States is a signatory, no
                                    Member State may maintain standards for imported products that exceed
                                    requirements for domestic product. The establishment of a lotting policy for
                                    imported products that identifies a lot of product by production date would
                                    necessitate a corresponding domestic policy change. FSIS will consider the
                                    establishment of such a policy in the context of its entire food safety and
                                    inspection program. FSIS expects to complete this action by
                                    October 31, 2008.

                                    OIG Position.

                                    We accept FSIS’ management decision.


Finding 7                           FSIS Needs Procedures for Analyzing Data

                                    FSIS’ information system contained incomplete and erroneous data. For
                                    example, we identified that FSIS’ information system did not have a record
                                    of the reinspection results for 400 lots of product presented for reinspection
                                    from January 1, 2005 to August 31, 2007. 45 We also found that inspection
                                    personnel could enter rejected weights that exceeded the weight of product
                                    presented for reinspection. This occurred because FSIS did not have
                                    documented procedures for analyzing data in the information system or other
                                    edit checks to determine that data were reasonable, complete, and accurate.
                                    FSIS officials could not explain why the errors were not detected and
                                    corrected. In addition, they explained that their analyses of data in the
                                    information system are often performed on an ad hoc basis. As a result, FSIS’
                                    has reduced assurance that its information system is a reliable tool for
                                    monitoring program operations.

                                    Departmental regulation requires agencies to implement sufficient controls
                                    for collecting reliable information. 46

                                    As noted in Finding 1, we found that FSIS does not have criteria for
                                    evaluating reinspection results at U.S. ports of entry. This type of analysis
                                    would assist in identifying foreign establishments to select for onsite review.
                                    Accordingly, we recommended that FSIS develop and implement criteria for
                                    judgmentally selecting foreign establishments for onsite review. This criteria

45
     During this timeframe more than 597,000 lots were presented for reinspection.
46
     Departmental Manual 1110-002, USDA Management Control Manual, dated November 29, 2002.

USDA/OIG-A/24601-08-Hy                                                                                    Page 24
                   should consider, among other factors, the reinspection results from FSIS’
                   information system.

                   We also identified several areas in which FSIS could improve the integrity of
                   data in the agency’s information system. Improvements in these areas could
                   assist in making the information system a more reliable tool for monitoring
                   program operations.

                   •     FSIS’ information system did not have a record of the reinspection results
                         for 400 lots of product presented for reinspection from January 1, 2005 to
                         August 31, 2007. The meat and poultry products associated with these
                         lots totaled approximately 7.4 million pounds. FSIS officials explained
                         that regional supervisory personnel are expected to monitor inspection
                         results; however, there are no standard analyses to ensure that the data
                         recorded are reasonable, complete, and accurate. In addition, FSIS
                         officials explained that the information system also does not alert system
                         users (i.e., import inspectors, their supervisors, and Headquarters staff)
                         that inspection results have not been recorded.

                   •     FSIS’ information system allowed inspection personnel to enter rejected
                         weights for rejected portions of a lot that exceeded weight of the product
                         presented for reinspection. We identified 5 lots where the amount
                         presented for reinspection totaled almost 28,000 pounds and the amount
                         rejected totaled more than 450,000 pounds. We also identified two lots
                         where the amount of product reinspected and rejected were negative
                         numbers. FSIS should modify the information system to ensure that only
                         appropriate amounts are entered into the information system.

                   •     FSIS’ information system prompted inspection personnel to perform
                         inspection tasks (e.g., physical reinspection and laboratory analysis) that
                         were not suitable to the product presented. We identified over 18,000
                         reinspection tasks that were not performed by inspection personnel from
                         January 1, 2005 to August 31, 2007. For example, the information system
                         assigned certain types of residue tests to product that did not have a
                         sufficient fat content to perform the required test. Detailed analysis of the
                         reinspection tasks were hampered because no reason was recorded for not
                         performing the inspection tasks for almost 30 percent of the entries. We
                         also noted that entries for the exempt reasons were not standardized (i.e.,
                         no effective drop down menus). FSIS should modify the information
                         system to require that the reason for not performing an inspection task be
                         recorded in a standard way. FSIS should develop and implement a
                         standard analysis to evaluate the reasons inspection tasks are not
                         performed in order to revise the types of inspections assigned.

                   •     FSIS’ information system did not prevent inspection personnel from
                         entering erroneous production dates. We tested the system to determine if
USDA/OIG-A/24601-08-Hy                                                                       Page 25
                         it would prevent or reject the entry of a date in the future for a lot’s
                         production date. We found that if an inspector entered a production date
                         of December 21, 2012, the system did not reject or otherwise question
                         this entry. Our examination of FSIS’ data from January 1, 2005 to
                         August 31, 2007 showed that the date of the lot’s inspection assignment
                         preceded the production dates entered for 133 lots. The products in these
                         lots totaled approximately 2.1 million pounds from a variety of product
                         types and countries.

                    In September 2007, FSIS awarded a contract to build the agency’s new PHIS
                    in order to better integrate and consolidate its numerous applications that
                    collect information on activities to ensure the safety of meat, poultry, and egg
                    products. FSIS plans to have the export and import functions of this system
                    ready for user acceptance testing by the third quarter of 2009. FSIS should
                    develop and implement procedures for analyzing data in the agency’s new
                    information system to determine that data are reasonable, complete, and
                    accurate. The analytical procedures implemented should also ensure that only
                    appropriate amounts are entered into the system and the reasons for not
                    performing scheduled reinspection tasks are valid.

Recommendation 15

                    Develop and implement procedures for performing standard analyses of data
                    in the new information system to determine that data were reasonable,
                    complete, and accurate. The procedures should identify the FSIS officials
                    responsible for performing the analyses and following up on discrepancies
                    noted.

                    Agency Response.

                    FSIS concurs with this recommendation. FSIS will develop and implement
                    standard operating procedures for performing analyses of data in the PHIS to
                    determine that data were reasonable, complete, and accurate. FSIS expects to
                    complete these actions by December 31, 2009.

                    OIG Position.

                    Although we agree that the standard analyses of data should be a part of the
                    new PHIS, the procedures for performing these analyses should be in place
                    before the PHIS is put into operation. To reach management decision, FSIS
                    should specify the timeframe for developing the procedures for performing
                    standard analyses of data in the PHIS. In addition, FSIS should develop and
                    implement interim procedures for performing standard analyses of data until
                    the PHIS is operational.



USDA/OIG-A/24601-08-Hy                                                                     Page 26
Recommendation 16

                    In the new information system, implement an edit check to alert users when
                    inspection results have not been recorded. As part of this analytical tool, FSIS
                    should also establish the expected timeframes for recording inspection
                    results.

                    Agency Response.

                    FSIS concurs with this recommendation and has established requirements for
                    the development of this capability within the PHIS. FSIS expects to complete
                    these actions by December 31, 2009.

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 17

                    In the new information system, implement an edit check to ensure that only
                    appropriate amounts are entered into the information system (e.g., negative
                    amounts are not entered, rejected weights do not exceed the presented weight,
                    and valid production dates are entered).

                    Agency Response.

                    FSIS concurs with this recommendation and has established requirements for
                    the development of this capability within PHIS. FSIS expects to complete
                    these actions by December 31, 2009.

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 18

                    In the new information system, require that the reason for not performing an
                    inspection task be recorded in a standard way (e.g., pick the reason from a
                    drop down menu). FSIS should also develop and implement a standard
                    analysis to evaluate the reasons inspection tasks are not performed in order to
                    revise the types of inspections assigned.




USDA/OIG-A/24601-08-Hy                                                                     Page 27
                                      Agency Response.

                                      FSIS concurs with this recommendation and has established requirements for
                                      the development of this capability within PHIS. FSIS expects to complete
                                      these actions by December 31, 2009.

                                      OIG Position.

                                      We accept FSIS’ management decision.


Finding 8                             Procedures for Managing Noncompliance Records Not Followed

                                      FSIS inspection personnel did not always follow established procedures for
                                      resolving the deficiencies noted in noncompliance records and could not
                                      explain why the procedures were not followed. For example, FSIS inspection
                                      personnel did not document on the noncompliance records the resolution of
                                      deficiencies noted in January 2007 (e.g., build up of blood and debris on
                                      bottom of band saw) in a California import establishment. In addition, FSIS’
                                      database of noncompliance records may not be complete. We noted that a
                                      noncompliance record in the files at a Pennsylvania import establishment that
                                      was not in FSIS’ database. FSIS could not provide explanations for these
                                      discrepancies. As a result, there is reduced assurance that import inspection
                                      establishments are adequately correcting identified deficiencies.

                                      We noted a similar finding as part of our assessment of the issues impacting
                                      the development of risk-based inspection.47 In that review, we recommended
                                      that FSIS reassess the effectiveness of training programs for inspection
                                      personnel and frontline supervisors and revise the program, as appropriate.
                                      FSIS agreed with this recommendation and expected to initiate the revision of
                                      its training programs by September 2008. Based on issues we identified at the
                                      import inspection establishments, FSIS should include the training of import
                                      inspection personnel in the agency’s reassessment of the effectiveness of its
                                      training programs. Examples of the types of issues we identified include the
                                      following.

                                      •     In January 2007, the inspector at a California import inspection
                                            establishment found the build up of blood and debris on bottom of band
                                            saw, dust and debris at bottom of the defrost tank, and debris in bottom of
                                            Cryovac machine as part of the pre-operational sanitation review on two
                                            consecutive days. The inspector did not document how these deficiencies
                                            were resolved on the NR, as required. At the exit conference to discuss


47
     Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry Processing Establishments, Audit Report No. 24601-07-Hy, issued
     December 2007.

USDA/OIG-A/24601-08-Hy                                                                                                                    Page 28
                         the draft report in June 2008, FSIS provided documentation that these
                         deficiencies were adequately resolved.

                    •    In August 2007, the inspector at another California import inspection
                         establishment noted that an outside contractor inappropriately picked up
                         an unsanitary white coat off the floor and put it on in the processing
                         room, stepped out of the room and returned carrying in a wooden pallet.
                         The same contractor also used an unsanitary knife that had residue on it
                         from the previous day’s work. At the time of our review at this
                         establishment in November 2007, there was no resolution of these issues.
                         At the exit conference to discuss the draft report in June 2008, FSIS
                         provided documentation that these deficiencies were adequately resolved.

                    •    FSIS’ database of noncompliance records may not be complete. We
                         found a noncompliance record in the files at the import inspection
                         establishment that was not in FSIS’ database. In addition, review of
                         noncompliance records in FSIS’ database for an import inspection
                         establishment in California disclosed records in FSIS’ database that were
                         not found in the files at the import inspection establishment

Recommendation 19

                    Include the training of import inspection personnel in FSIS’ reassessment of
                    the effectiveness of the agency’s training programs that is currently
                    scheduled to be completed by September 2008.

                    Agency Response.

                    FSIS agrees. As part of the ongoing comprehensive evaluation of FSIS
                    training programs being conducted in response to recommendation 34 of OIG
                    Audit 24601-7-Hy, FSIS is examining the training of import inspection
                    personnel. FSIS expects to complete this action by September 30, 2008.

                    OIG Position.

                    We accept FSIS’ management decision.




USDA/OIG-A/24601-08-Hy                                                                    Page 29
Scope and Methodology
                   We performed our audit at FSIS Headquarters in Washington, D.C., the
                   office of the International Audit Staff in Omaha, Nebraska, two import field
                   offices and selected import inspection establishments from August 2007 to
                   January 2008. To accomplish our objectives, we discussed current operations
                   with FSIS officials, reviewed supporting documentation to evaluate how the
                   agency implemented its responsibilities regarding the imported meat and
                   poultry inspection program, and became familiar with FSIS’ import
                   information system. Our review was concentrated on three divisions of OIA:
                   (1) international equivalence, which makes the determinations on the
                   equivalence of foreign food safety system, (2) international audit, which
                   performs the onsite audits to verify that the food safety systems are
                   equivalent, and (3) import inspection, which reinspects meat and poultry
                   products at U.S. ports of entry. We also assessed FSIS’ implementation of
                   prior OIG audit recommendations related to the scope of this audit.

                   To examine the procedures and controls associated with FSIS’ imported meat
                   and poultry inspection program, we judgmentally selected five countries to
                   review: China, Chile, Canada, Brazil, and Australia. We selected China and
                   Chile because they represent two countries for which FSIS has made recent
                   decisions on the equivalency of the country’s food safety system. In
                   April 2006, FSIS determined that China was eligible to export certain
                   processed poultry products to the United States. In November 2005, FSIS
                   determined that Chile was eligible to export meat products to the United
                   States. We selected Canada, Brazil and Australia for review because of the
                   high volume of product these countries annually export to the United States;
                   they are generally in the top five countries that export products.

                   We visited the import field offices located in Philadelphia, Pennsylvania and
                   Diamond Bar, California, and nine import inspection establishments overseen
                   by these offices. These locations were selected for review based on the
                   volume of products reinspected by FSIS’ import inspection personnel for the
                   four countries we selected to review. Almost 9 million pounds of product was
                   presented to FSIS for reinspection at the nine import inspection
                   establishments from January 2005 through August 2007. The nine import
                   inspection establishments were located in Carson, California; Vernon,
                   California (2 establishments); Dominguez Hills, California; Elizabeth, New
                   Jersey; Mullica Hill, New Jersey (2 establishments); Woodstown, New
                   Jersey; and Kennet Square, Pennsylvania.




USDA/OIG-A/24601-08-Hy                                                                  Page 30
                   Equivalency

                   To assess FSIS’ equivalence determinations, we focused on operations and
                   decisions made from November 2005 through December 2007. As of 2007,
                   FSIS had approved 33 countries as eligible to import meat and poultry into
                   United States. We evaluated FSIS’ procedures for making the initial
                   determination of equivalence by examining the determinations made for
                   Chile and China.

                   We also evaluated the annual audits that were conducted during fiscal years
                   2005, 2006, and 2007 for the four countries selected for review. Our review
                   included an analysis of FSIS’ methodologies for scheduling the audits and for
                   selecting the foreign establishments to review. China was excluded from this
                   analysis because it currently does not export product to the United States.

                   Reinspection

                   To examine FSIS processes related to reinspecting product at U.S. ports of
                   entry, we visited nine import inspection establishments and analyzed data in
                   FSIS’ import information system. Our analysis included data recorded in the
                   system from January 2005 to August 2007.

                   At the import inspection establishments, we familiarized ourselves with the
                   responsibilities of import inspectors and the oversight role of the regional
                   supervisors. We also examined the supporting documentation for a
                   judgmental sample of 192 lots of meat and poultry products presented to
                   FSIS for reinspection from January 2005 through August 2007. We selected
                   the sample of lots for review based on the quantity and variety of products
                   reinspected, the type of reinspections performed, and the reinspection results.

                   We conducted our audit in accordance with Government Auditing Standards.
                   Those standards require that we plan and perform the audit to obtain
                   sufficient, appropriate evidence to provide a reasonable basis for our findings
                   and conclusions based on our audit objectives. We believe that the evidence
                   obtained provides a reasonable basis for our findings and conclusions based
                   on our audit objectives.




USDA/OIG-A/24601-08-Hy                                                                   Page 31
Exhibit A – Equivalence Protocols
                                                                                                                     Exhibit A – Page 1 of 3

In March and April 2006, FSIS provided the following information to OCFO to close two of the
recommendations from our prior report. 48 In response to these recommendations, FSIS agreed to
develop and implement protocols for: (1) postponing and cancelling a scheduled enforcement audit and
(2) determining which equivalence deficiencies would question a country’s overall equivalence
determination. In June 2006, OCFO notified FSIS that it accepted FSIS’ proposed actions and closed
the recommendations.

The following was taken from the information FSIS provided to OCFO in March and April 2006.

•      FSIS Protocol for Postponing or Canceling a Scheduled Enforcement Audit

       FSIS has developed a process for evaluating when a scheduled enforcement audit should be
       postponed or cancelled. FSIS schedules enforcement audits when findings from a routine audit(s)
       demonstrate a considerable weakness in the oversight and enforcement of the U.S. import
       inspection requirements by the national government regarding its country’s inspection system
       relative to producing meat, poultry, or egg products for export to the United States. On very rare
       occasions, a scheduled enforcement audit will be postponed or cancelled, even though
       compensating controls, when enacted, will remain in effect until FSIS has absolute assurance of
       corrective actions being implemented.          FSIS’ compensating controls include increased
       port-of-entry testing of all products from those establishments identified with potential or serious
       public health concerns.

       FSIS uses the following process to evaluate when a scheduled enforcement audit should be
       postponed or cancelled. When an enforcement audit is postponed or cancelled, the Director of
       FSIS’ International Equivalence Staff, OIA, documents the proposed action in a memo for
       evaluation and concurrence by the OIA Assistant Administrator and FSIS Administrator. FSIS
       follows the criteria listed below in postponing or canceling an enforcement audit:

           Postponement of an Enforcement Audit

            One or any combination of the following criteria would lead to a postponement of an
            enforcement audit.

            o     Security issues in country preventing safe traveling.
            o     Natural disaster in country.
            o     Additional time required for FSIS auditors to satisfactorily prepare for the audit.
            o     Sudden unavailability of an auditor(s) due to health problems or audit scheduling.
            o     Foreign country requires additional time to satisfactorily address all issues from previous
                  audit.

48
     Assessment of the Equivalence of the Canadian Inspection System, Audit Report No. 24601-05-Hy, December 2005.

USDA/OIG-A/24601-08-Hy                                                                                                            Page 32
                                                                                    Exhibit A – Page 2 of 3



        o Foreign country disallows the enforcement audit, which results in FSIS suspending imports
          from the country.
        o FSIS budget restrictions.

       Cancellation of an Enforcement Audit

        FSIS will cancel an enforcement audit only in the following circumstance:

        o Sufficient evidence that the country has taken the necessary steps of implementing
          corrective actions, thus, changing the scheduled enforcement audit to a routine audit. FSIS
          will make this decision based on supporting documentation from the country detailing the
          corrective actions by the establishment(s) and verification of corrective actions by the
          national government.

•   FSIS Protocol for Determining Deficiencies that Question Overall Equivalence

    FSIS’ determination of the equivalence of a foreign country’s system of inspection is based on an
    evaluation of various requirements and procedures put into effect by the national government with
    respect to establishments preparing products for export to the United States. FSIS questions a
    country's equivalence when there is evidence that the requirements and procedures are not being
    implemented and enforced on a system-wide basis by confirmation of one or more of the following
    conditions:

       The inability by the national government to ensure uniform enforcement of the requisite laws
        and regulations in establishments resulting in the production of adulterated or misbranded
        product for export to the United States as evidenced by one or more of the following
        circumstances:

        o Foreign establishment deficiencies identified on the FSIS auditor’s checklist likely to result
          in product contamination, adulteration or misbranding, and resulting in a trend of such
          occurrences in a significant number of the audited establishments. Examples of
          deficiencies of public health concern could include negative findings involving HACCP,
          SSOP, labeling, microbiological or chemical sampling and testing programs, and
          ante-mortem and post-mortem inspection issues.
        o U.S. port-of-entry violations resulting in trend indicators of adulterated product or
          misbranding in a significant number of the establishments exporting to the United States.

       The lack of control and supervision by the national government over official activities of
        employees including inspection personnel assigned to establishments as evidenced by:

        o Payment of inspectors by sources other than government.

USDA/OIG-A/24601-08-Hy                                                                           Page 33
                                                                                  Exhibit A – Page 3 of 3



      o Non-enforcement of regulatory requirements and procedures resulting in product being
        contaminated, adulterated or misbranded.

     Failure of a country to implement a national residue program to prevent the exportation of
      product with potential contaminants as evidenced by (1) lack of infrastructure of national
      government to control residue contaminants in meat, poultry, or egg products or (2) the
      exportation to the United States of product having contaminants.

  FSIS will make a decision regarding whether a foreign inspection system is maintaining
  equivalence within 30 days of the conclusion of the audit. In situations where a country's
  equivalence is questioned, FSIS takes one or more of the following measures:

     Conducts follow-up enforcement audit to substantiate the equivalence of the foreign inspection
      system;

     Suspends the imports of products until the exporting country demonstrates that its sanitary
      measures attain the same level of public health protection as the U.S. system of inspection; or

     Establishes compensating controls to ensure product safety. Compensating controls may
      include increased port-of-entry testing of products from all exporting establishments until
      product in pipeline is exhausted.

  One or more of these measures would remain in effect until question of equivalence is no longer an
  issue




USDA/OIG-A/24601-08-Hy                                                                         Page 34
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 7




USDA/OIG-A/24601-08-Hy                     Page 35
                         Exhibit B Page 2 of 7




USDA/OIG-A/24601-08-Hy              Page 36
                         Exhibit B Page 3 of 7




USDA/OIG-A/24601-08-Hy              Page 37
                         Exhibit B Page 4 of 7




USDA/OIG-A/24601-08-Hy              Page 38
                         Exhibit B Page 5 of 7




USDA/OIG-A/24601-08-Hy              Page 39
                         Exhibit B Page 6 of 7




USDA/OIG-A/24601-08-Hy              Page 40
                         Exhibit B Page 7 of 7




USDA/OIG-A/24601-08-Hy              Page 41
